t,· BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-107
CEDAR POINT NURSERY, ET AL.,

Petitioners,
V.

VICTORIA HASSID, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Brief of Amicus Curiae The Buckeye Institute
Supporting Petitioners contains 3,849 words, excluding
the parts of the Brief that are exempted by Supreme
Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on January 7, 2021.

Donna Wolf ( )
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

